                    U.S. Department of Agriculture
                       Office of Inspector General
                                  Northeast Region




         Audit Report

Food Safety and Inspection Service
 Oversight of the Listeria Outbreak
 in the Northeastern United States




                          Report No. 24601-02-Hy
                                       June 2004
                           UNITED STATES DEPARTMENT OF AGRICULTURE
                                      OFFICE OF INSPECTOR GENERAL

                                           Washington D.C. 20250




DATE:           June 9, 2004

REPLY TO
ATTN OF:        24601-02-Hy

SUBJECT:        Food Safety and Inspection Service
                Oversight of the Listeria Outbreak in the Northeastern United States

TO:             Barbara J. Masters
                Acting Administrator
                Food Safety and Inspection Service

ATTN:           Ronald F. Hicks
                Assistant Administrator
                Office of Program Evaluation, Enforcement and Review


This report presents the results of our audit of Food Safety and Inspection Service’s oversight of the
Listeria outbreak in the Northeastern United States. Your response to the official draft, dated
May 4, 2004, is included as exhibit A. Because the enclosures were voluminous, they were not
included. Excerpts of your response and the Office of Inspector General’s (OIG) position are
incorporated into the Findings and Recommendations section of the report. Based on your response,
management decisions have been reached on all recommendations except Nos. 1, 3, 5, 6, 7, 8, 10, 11,
and 12. Please follow your agency’s internal procedures in forwarding documentation for final action
to the Office of the Chief Financial Officer.           Management decisions for the remaining
recommendations can be reached once you have provided the additional information outlined in the
report section OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing
the corrective actions taken or planned, and the timeframes for implementation of the remaining
recommendations. Please note that the regulation requires management decision to be reached on all
recommendations within 6 months of report issuance.


        //s//

ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Executive Summary
Food Safety and Inspection Service Oversight of the Listeria Outbreak In the
Northeastern United States (Audit Report No. 24601-02-Hy)

Results in Brief                  This report presents the results of the Office of Inspector General’s (OIG)
                                  audit of the Food Safety and Inspection Service’s (FSIS) oversight of the
                                  Listeria outbreak in the Northeastern United States in 2002 and FSIS’
                                  inspection of plants that initiated recalls of product potentially contaminated
                                  with Listeria monocytogenes.

                                  FSIS has the responsibility for ensuring that meat and poultry products sold in
                                  interstate commerce are safe, wholesome, and accurately labeled. FSIS is
                                  required to verify that regulations regarding food safety are being met and
                                  products are not contaminated with harmful pathogens. When products
                                  present a potential health hazard, a recall is initiated by the plant to remove
                                  the adulterated or misbranded products from commerce. FSIS is responsible
                                  for overseeing all recall activities by official meat and poultry establishments.

                                  In late August 2002, case-control studies by the Centers for Disease Control
                                  and Prevention (CDC) implicated ready-to-eat poultry products as the likely
                                  source of illnesses associated with Listeria monocytogenes in the
                                  Northeastern United States. In September 2002, FSIS initiated sampling of
                                  the FSIS-regulated products. From January 1, 2002 to January 3, 2003, there
                                  were 15 recalls involving approximately 32.2 million pounds of ready-to-eat
                                  products potentially contaminated with Listeria monocytogenes that were
                                  produced by plants in the Northeastern United States. Our audit focused
                                  primarily on the two establishments with the largest recalls, the Pilgrim’s
                                  Pride Corporation that recalled 27.4 million pounds of ready-to-eat poultry
                                  products in October 2002, and Jack Lambersky Poultry Products, Inc., that
                                  recalled 4.2 million pounds of ready-to-eat poultry products in
                                  November 2002. Our audit work for the Pilgrim’s Pride Corporation was
                                  limited to FSIS’ oversight of the effectiveness of the recall due to an ongoing
                                  criminal investigation.

                                  FSIS inspection personnel did not identify material instances of
                                  noncompliance at Jack Lambersky Poultry Products, Inc., prior to the recall.
                                  This occurred because FSIS’ in-plant inspection personnel did not follow
                                  inspection regulations and the circuit supervisor provided minimal
                                  supervision. For example, we determined that FSIS inspection personnel
                                  issued relatively few noncompliance records (NR) at Jack Lambersky Poultry
                                  Products, Inc. during 2001 and 2002. FSIS procedures1 require inspectors to
                                  record findings of noncompliance on an NR each time an instance of
                                  regulatory noncompliance is found by FSIS. We determined that the plant’s

1
    FSIS Directive 5400.5, “Inspection System Activities,” January 1998.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                    i
                                  quality control staff documented repetitive deficiencies in the plant’s
                                  sanitation records. Those deficiencies were the same type of issues that FSIS
                                  inspection personnel documented as noncompliances at other times. They
                                  included construction dust, meat residue on equipment, and leaking ceilings.
                                  These repetitive deficiencies were noted during the period when the recalled
                                  product was produced.

                                  We also found that plant and inspection personnel did not identify that Jack
                                  Lambersky Poultry Products, Inc., should have had a Listeria testing program.
                                  According to regulations,2 plants should establish controls for a food safety
                                  hazard that is reasonably likely to occur based on plant history. Product
                                  samples taken by FSIS in 1990 and 1994 from the Jack Lambersky Poultry
                                  Products, Inc., plant tested positive for Listeria monocytogenes. According to
                                  the FSIS Consumer Safety Officer that reviewed plant operations in
                                  October 2002, Jack Lambersky Poultry Products, Inc., reassessed its Hazard
                                  Analysis and Critical Control Point (HACCP) plan in 1999 and incorrectly
                                  concluded that Listeria monocytogenes was not a hazard likely to occur.

                                  Subsequent to the recall, FSIS inspection services did not materially improve.
                                  Along with the circuit supervisor, we observed the inspector completing his
                                  daily inspection procedures regarding product sampling, plant sanitation,
                                  product temperature monitoring, and product labeling.            A scheduled
                                  inspection procedure for product temperature monitoring provides an
                                  indication of whether the plant is ensuring that processing conditions do not
                                  promote the growth of Listeria monocytogenes. This allows the inspector to
                                  validate that proper temperatures are maintained and documented by the
                                  plant. In performing this procedure, the inspector demonstrated that he was
                                  not aware of how the plant documented its monitoring of temperature.

                                  FSIS did not verify the completeness of the Jack Lambersky Poultry Products,
                                  Inc., recall. Compliance officers did not obtain and verify documentation
                                  supporting the pounds of recalled products produced by the plant and the
                                  pounds returned or destroyed by customers. For example, our audit tests
                                  showed that the firm had no documentation to support the 136,067 pounds
                                  returned to the plant by customers. The firm calculated this amount by
                                  subtracting the amount held in inventory from the total amount destroyed at
                                  the landfill. As a result, FSIS could not be reasonably certain that all recalled
                                  products had been removed from commerce.

                                  To evaluate FSIS’ oversight of the recall process, we reviewed 13 of the 15
                                  recalls of ready-to-eat product potentially contaminated with Listeria
                                  monocytogenes. Plants in the Northeastern United States produced the
                                  recalled product from January 1, 2002 to January 3, 2003. We found
                                  weaknesses in FSIS’ management control and oversight of the recall process.

2
    9 C.F.R. §417.2(a), January 2002.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                   ii
                                These weaknesses were similar to those we identified in our review of the
                                ConAgra Beef Company (ConAgra) recall3 in that FSIS’ oversight of the
                                recalls was ineffective.

                                • FSIS had no assurance that the recalls of ready-to-eat product potentially
                                  contaminated with Listeria monocytogenes were effective. FSIS did not
                                  critically review recall final reports and other information supporting the
                                  agency’s oversight of food safety recalls. FSIS’ primary method for
                                  validating the completeness of recalls is the effectiveness check, a
                                  documented visit or phone call to businesses or other entities who
                                  received the recalled product. For example, the FSIS Beltsville District
                                  Office did not perform effectiveness checks to ensure that almost
                                  279,000 pounds of product recalled by Jack Lambersky Poultry Products,
                                  Inc., were properly controlled. In 2002, there were 15 plants in the
                                  Northeastern United States that recalled approximately 32.2 million
                                  pounds of ready-to-eat poultry products potentially contaminated with
                                  Listeria monocytogenes. As a result, there is an increased risk that
                                  product was not removed from commerce.

                                • FSIS did not ensure that the recall of 1.7 million pounds of ready-to-eat
                                  poultry products distributed for use in the National School Lunch Program
                                  purchased by the U.S. Department of Agriculture from the Pilgrim’s Pride
                                  Corporation was effective. We identified 351 discrepancies in the data
                                  documented on the 362 effectiveness checks. (An effectiveness check
                                  may have more than one discrepancy.) Examples of these discrepancies
                                  included instances where FSIS Compliance Officers did not accurately
                                  determine product disposition and did not perform required followup
                                  reviews. These types of discrepancies were pervasive because FSIS
                                  procedures did not require supervisory review to ensure the effectiveness
                                  checks were fully completed.

                                We found that in conjunction with the CDC, the FSIS Office of Public Health
                                and Science took appropriate action in investigating the Listeria outbreak in
                                2002. FSIS performed an extensive trace-back analysis that included product
                                sampling, plant questionnaires, and interviews with Listeria case patients.
                                Using patients’ shopping histories and market analysis, FSIS visited
                                delicatessens, supermarkets, and convenience stores that sold the potentially
                                contaminated product.

Recommendations
in Brief                        FSIS needs to develop and implement a plan to address the weaknesses in
                                inspection services provided to Jack Lambersky Poultry Products, Inc. The
                                plan should address the level of supervision necessary for achieving an

3
    Audit Report No. 24601-2-KC, “Food Safety and Inspection Service Oversight of Production Process and Recall at ConAgra Plant
    (Establishment 969),” issued September 30, 2003.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                               iii
                   acceptable level of performance by the inspector in applying HACCP
                   requirements.

                   FSIS should also develop and implement procedures requiring compliance
                   officers to validate the accuracy of recall documentation provided by the firm.
                   These procedures should ensure that all recalled products are appropriately
                   accounted for, with emphasis on products distributed to schools and other
                   institutions serving vulnerable populations.

Agency Response    FSIS generally agreed with the report’s recommendations. We have
                   incorporated excerpts from FSIS’ response in the Findings and
                   Recommendations section of this report, along with the OIG position. FSIS’
                   response is included as Exhibit A. Because the enclosures were voluminous,
                   they were not included.

OIG Position      Based on FSIS’ response, we were able to reach management decision on
                  3 of the report’s 12 recommendations. The Findings and Recommendations
                  section of this report provides the details of the additional information needed
                  to reach management decision on Recommendation Nos. 1, 3, 5, 6, 7, 8, 10,
                  11, and 12.




USDA/OIG-AUDIT No. 24601-02-Hy                                                                  iv
Abbreviations Used in This Report

AMS            Agricultural Marketing Service
CDC            Center for Disease Control and Prevention
C.F.R.         Code of Federal Regulations
ConAgra        ConAgra Beef Company
CSI            Consumer Safety Inspectors
E. coli        Escherichia coli
EIAO           Enforcement Investigations and Analysis Officer
FNS            Food and Nutrition Service
FSIS           Food Safety and Inspection Service
FSRE           Food Safety Regulatory Essentials
HACCP          Hazard Analysis and Critical Control Point
NR             Noncompliance Record
IPPS           In-plant Performance System
NSLP           National School Lunch Program
OCFO           Office of the Chief Financial Officer
OFO            Office of Field Operations
OIG            Office of Inspector General
OPEER          Office of Program Evaluation, Enforcement and Review
OPHS           Office of Public Health and Science
OPPD           Office of Policy and Program Development
PBIS           Performance Based Inspection System
RTE            Ready-To-Eat
SSOP           Sanitation Standard Operating Procedures
USC            United States Code
USDA           U.S. Department of Agriculture




USDA/OIG-AUDIT No. 24601-02-Hy                                        v
Table of Contents
Executive Summary ................................................................................................................................ii

Abbreviations Used in This Report ....................................................................................................... v

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. Inspection Services at Jack Lambersky Poultry Products, Inc................................... 5

        Finding 1             Weaknesses in Inspection Services Prior to the Recall........................................... 6
                                  Recommendation No. 1.................................................................................. 10
                                  Recommendation No. 2.................................................................................. 13
        Finding 2             Weaknesses in Inspection Services Subsequent to the Recall .............................. 14
                                  Recommendation No. 3.................................................................................. 16
                                  Recommendation No. 4.................................................................................. 17
                                  Recommendation No. 5.................................................................................. 19
        Finding 3             Inadequate Documentation on the Amount and Disposition of Recalled
                              Product .................................................................................................................. 19
                                  Recommendation No. 6.................................................................................. 21

    Section 2. FSIS Oversight of Recalls of Products Potentially Contaminated with Listeria
                  Monocytogenes ......................................................................................................... 22

        Finding 4             Effectiveness of Food Safety Recalls Unknown by FSIS ..................................... 23
                                   Recommendation No. 7.................................................................................. 25
                                   Recommendation No. 8.................................................................................. 25
        Finding 5             Ineffective Oversight of Recalled Product Distributed to the NSLP .................... 26
                                   Recommendation No. 9.................................................................................. 29
                                   Recommendation No. 10................................................................................ 30
                                   Recommendation No. 11................................................................................ 31
                                   Recommendation No. 12................................................................................ 32

Scope and Methodology........................................................................................................................ 34

Exhibit A – Agency Response .............................................................................................................. 36




USDA/OIG-AUDIT No. 24601-02-Hy                                                                                                                          vi
Background and Objectives
Background         The Food Safety and Inspection Service (FSIS) is the public health regulatory
                   agency within the U.S. Department of Agriculture (USDA). FSIS is
                   responsible for protecting consumers by ensuring that meat, poultry, and egg
                   products are safe, wholesome, and accurately labeled.

                   Operating under the authority of the Federal Meat Inspection Act, the Poultry
                   Products Inspection Act, and the Egg Products Inspection Act, FSIS is
                   required to inspect and regulate all raw and processed meat, poultry, and egg
                   products sold in interstate commerce to ensure that they are not adulterated.
                   More than 7,600 inspection personnel verify that regulations regarding food
                   safety and other consumer protection concerns are met in over 6,500 meat,
                   poultry, and egg processing plants.

                   In addition to inspection activities, FSIS has responsibilities including setting
                   food safety standards for plant facilities and processing procedures; testing for
                   microbiological, chemical, and other types of contamination; and conducting
                   epidemiological investigations in cooperation with the Centers for Disease
                   Control and Prevention (CDC) based on reports of food borne health hazards
                   and disease outbreaks. FSIS also has responsibilities for conducting risk
                   assessments and other scientific studies to estimate human health outcomes
                   associated with the consumption of meat, poultry, and egg products and
                   performing enforcement activities to address situations where unsafe,
                   unwholesome, or inaccurately labeled products have been produced or
                   marketed.

                   FSIS administers its inspection program primarily through the Office of
                   Policy and Program Development (OPPD), Office of Public Health and
                   Science (OPHS), and Office of Field Operations (OFO).

                   • The OPPD, through the Regulations and Directives Development Staff, is
                     responsible for: (1) managing the development and drafting of Agency
                     regulations and directives; (2) maintaining administrative records such as
                     pubic comments and recommendations associated with regulatory
                     issuances; (3) conducting regulatory analysis to ensure that regulations are
                     consistent with program objectives, statutory requirements, and
                     departmental policies; and (4) preparing and publishing notification of
                     public hearings, meetings, and scientific conferences.

                   • The OPHS collects, analyzes, and reports scientific information related to
                     meat, poultry, and egg products. The information is used to monitor
                     production processes and identify and evaluate potential food borne
                     hazards. OPHS and the Recall Management Division, which is part of
                     OFO, are responsible for: (1) responding to recognized, emerging, or
USDA/OIG-AUDIT No. 24601-02-Hy                                                                     1
                      potential threats to the food supply; (2) conducting trace-back or
                      trace-forward investigations to identify product disposition and the origin
                      of hazards; and (3) coordinating all recall activities associated with
                      products believed to be contaminated or adulterated.

                   • The OFO is responsible for planning, providing leadership, formulating
                     and coordinating policies, and directing the administration of inspection
                     programs and activities to ensure that meat, poultry, and egg products are
                     safe, wholesome, and properly labeled. OFO accomplishes these
                     responsibilities through the 15 district offices. The district offices,
                     through the circuit supervisors, are to exercise supervisory control of the
                     inspection process performed by inspectors at plants within their
                     jurisdictions. During a meat or poultry recall, the district offices are
                     responsible for closely monitoring the effectiveness of the firm’s recall
                     procedures to ensure that all reasonable efforts have been made to effect
                     the recall and that all available product has been removed from commerce.

                   FSIS also has responsibility for ensuring that ready-to-eat products, such as
                   luncheon meats and deli-style products, are not contaminated with harmful
                   pathogens such as Listeria monocytogenes. Ready-to-eat products are
                   adulterated if they contain Listeria monocytogenes or if they come into direct
                   contact with a food contact surface that is contaminated with the pathogen.

                   Listeria monocytogenes is a pathogenic bacterium found in the environment
                   (e.g., soil, water, vegetation, and on the surfaces of equipment, floors and
                   walls) and is often carried by healthy animals (including humans). It grows
                   under low-oxygen conditions and at low refrigeration temperatures and
                   survives for long periods of time in the environment, on foods, in processing
                   plants, and in household refrigerators. Listeria can contaminate and grow in
                   ready-to-eat products if they are not formulated or produced in a manner to
                   destroy or suppress the growth of the organism.

                   In a processing plant, products can be contaminated with
                   Listeria monocytogenes if the pathogen is already present in product
                   ingredients or if there is a processing error, such as incorrect formulation or
                   inadequate processing time or temperature. Also, a product that has
                   undergone a successful lethality treatment to kill Listeria monocytogenes can
                   be contaminated by biofilms on food-contact surfaces of equipment used for
                   processing, handling, or packaging the product. In addition, product can be
                   exposed to environmental contamination during post-lethality processing.
                   This contamination could be caused by a plant’s failure to take adequate
                   precautions during construction or remodeling. This contamination could
                   also be caused by poorly designed facilities or equipment with hard-to-reach
                   niches that harbor the pathogen. Furthermore, product contamination can
                   occur if raw and finished products, equipment, or plant personnel cross
                   between raw and finished product areas.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                   2
                   The consumption of food contaminated with Listeria monocytogenes can
                   cause listeriosis, an uncommon but potentially fatal disease. Newborns,
                   pregnant women, elderly adults, and people with weakened immune systems
                   are at a greater risk of becoming ill from eating foods contaminated with
                   Listeria monocytogenes. The disease can cause high fever, severe headache,
                   nausea, infections, and miscarriages and stillbirths.     According to a
                   1999 study conducted by CDC, there are approximately 2,500 cases of
                   listeriosis annually in the United States, resulting in approximately
                   500 deaths. Based on CDC’s surveillance data, the number of listeriosis cases
                   declined by 38 percent from 1996 to 2002.

                   From January 1, 2002 to January 3, 2003, there were 15 recalls involving
                   approximately 32.2 million pounds of product potentially contaminated with
                   Listeria monocytogenes that were produced by plants in the Northeastern
                   United States, which led to 6 deaths and 36 illnesses in 8 States.

                   In September 2002, FSIS initiated sampling of FSIS-regulated products when
                   illnesses associated with Listeria monocytogenes emerged.                On
                   October 12, 2002, FSIS announced that the Pilgrim’s Pride Corporation was
                   recalling approximately 27.4 million pounds of fresh and frozen ready-to-eat
                   poultry products that were potentially contaminated with Listeria
                   monocytogenes. These products were produced between May 1, 2002 and
                   October 11, 2002, and were distributed to retail stores, restaurants, and
                   institutions nationwide.

                   The Pilgrim’s Pride Corporation recall included approximately 1.8 million
                   pounds of turkey products purchased by USDA for distribution to schools and
                   other recipient agencies. Of the 1.8 million pounds destined for schools,
                   USDA determined that 160,000 pounds of the product was never shipped and
                   was held at the plant, leaving approximately 1.7 million pounds to be
                   accounted for. A total of 20 States received the product by the time the recall
                   notification was announced. Of the 20 affected States, 14 States reported that
                   product was sent to the school level, and 6 States reported that the product
                   was on hold in State warehouses.

                   On November 2, 2002, FSIS announced that Jack Lambersky Poultry
                   Products, Inc., voluntarily recalled approximately 200,000 pounds of fresh
                   and frozen ready-to-eat poultry products that may have been contaminated
                   with Listeria monocytogenes. FSIS’ testing revealed that ready-to-eat poultry
                   products were contaminated with a strain of Listeria monocytogenes that was
                   indistinguishable from the outbreak strain, which affected victims in the
                   Northeastern United States. In addition to the recall, the establishment
                   voluntarily suspended its operations pending the results of additional testing.
                   On November 20, 2002, an FSIS microbiological investigative sample
                   collected by FSIS on November 14, 2002, returned positive for
USDA/OIG-AUDIT No. 24601-02-Hy                                                                   3
                   Listeria monocytogenes. On November 21, 2002, the recall was expanded to
                   approximately 4.2 million pounds of poultry products produced between
                   May 29, 2002 and November 2, 2002.

                   At the request of the Senate Committee on Agriculture, Nutrition, and
                   Forestry, we performed an audit of FSIS’ oversight of the recall by the
                   ConAgra Beef Company (ConAgra) of 18 million pounds of ground beef and
                   beef products suspected of being contaminated with Escherichia coli
                   (E. coli) O157:H7.         (Audit Report No. 24601-02-KC, issued
                   September 30, 2003.) In view of the serious conditions found during that
                   audit, we initiated work in October 2002, to evaluate USDA’s response
                   regarding the Pilgrim’s Pride recall. We made an initial assessment of
                   activities at the establishment in Franconia, Pennsylvania and expanded our
                   review to include FSIS’ oversight of the Listeria outbreak in the Northeastern
                   United States. We limited our review of the Pilgrim’s Pride Corporation to
                   FSIS’ oversight of the recall due to an ongoing criminal investigation.

Objectives         The objective of our review was to evaluate FSIS’ oversight of the Listeria
                   outbreak in the Northeastern United States in 2002 and FSIS’ inspection of
                   plants that initiated recalls of product potentially contaminated with
                   Listeria monocytogenes. This evaluation included: (1) a review of inspector
                   supervision, noncompliance records (NR), potential contamination, sampling
                   procedures, Listeria testing, and scheduled inspection procedures at selected
                   plants; (2) a determination of whether existing FSIS procedures were
                   adequate and were being followed; (3) an assessment of FSIS’ oversight of
                   recalled products donated for use in the National School Lunch Program
                   (NSLP); and (4) an assessment of FSIS’ investigation and response to the
                   Listeria outbreak.

                   To accomplish the objective, we visited FSIS headquarters, two district
                   offices, and two circuits. Also, we conducted fieldwork at two selected plants
                   and their respective administrative offices and facilities for storing recalled
                   product. In addition, we performed work at the Food and Nutrition Service
                   (FNS) and Agricultural Marketing Service (AMS) headquarters, four State
                   education offices, and six county school districts. Our audit work primarily
                   covered the period January 2002 through July 2003.




USDA/OIG-AUDIT No. 24601-02-Hy                                                                   4
Findings and Recommendations
Section 1. Inspection Services at Jack Lambersky Poultry Products, Inc.

                    Jack Lambersky Poultry Products, Inc., is responsible for producing safe and
                    wholesome products. However, on November 20, 2002, a microbiological
                    investigative sample collected by FSIS and produced at Jack Lambersky
                    Poultry Products, Inc., returned positive for Listeria monocytogenes. The
                    strain of Listeria monocytogenes found in this sample matched the strain of
                    the pathogen associated with illnesses and deaths from Listeriosis in the
                    Northeastern United States in 2002. As a result, on November 21, 2002, the
                    plant voluntarily recalled approximately 4.2 million pounds of ready-to-eat
                    poultry products potentially contaminated with Listeria monocytogenes. The
                    poultry products were produced between May 29, 2002 and
                    November 2, 2002.

                    FSIS has the responsibility for ensuring that poultry products sold in
                    interstate commerce are safe and wholesome. FSIS district offices, through
                    the circuit supervisors, are to exercise supervisory control of the inspection
                    process performed by inspectors at plants within their jurisdictions.

                    We found that FSIS inspection personnel did not identify material instances
                    of noncompliance at the Jack Lambersky Poultry Products, Inc., plant
                    preceding the recall. For example, inspection personnel failed to correct the
                    plant’s potential contamination of product, which occurred when exposed
                    finished product passed through the raw product area. We also found that
                    inspection personnel did not identify that the plant needed a Listeria testing
                    program. These conditions occurred because inspection personnel did not
                    follow established procedures. In October 2002, the FSIS Consumer Safety
                    Officer also identified these conditions as part of the comprehensive
                    assessment of the plant’s operations.

                    FSIS’ inspection services did not materially improve subsequent to the recall.
                    For example, we observed along with the circuit supervisor, that the inspector
                    could not complete a routine procedure for determining how the plant
                    documents its monitoring efforts with the Hazard Analysis and Critical
                    Control Point (HACCP) plan.

                    FSIS did not obtain adequate documentation from Jack Lambersky Poultry
                    Products, Inc., to determine if the plant identified and accounted for all
                    product subject to the recall. Consequently, FSIS cannot ensure that all
                    reasonable efforts were made to remove from commerce the approximately
                    4.2 million pounds of product potentially contaminated with Listeria
                    monocytogenes.

USDA/OIG-AUDIT No. 24601-02-Hy                                                                   5
Finding 1                     Weaknesses in Inspection Services Prior to the Recall

                              FSIS inspection personnel did not identify some ongoing insanitary practices
                              as defined in the Poultry Products Inspection Act at the Jack Lambersky
                              Poultry Products, Inc., plant preceding the recall of ready-to-eat poultry
                              products. This occurred because FSIS’ in-plant inspection personnel did not
                              follow inspection regulations and the circuit supervisor provided minimal
                              supervision. Thus, FSIS did not enforce regulations intended to ensure that
                              poultry products were safe and wholesome.

                              Because of insanitary practices at Jack Lambersky Poultry Products, Inc., in
                              November 2002, the firm recalled approximately 4.2 million pounds of
                              ready-to-eat poultry products potentially contaminated with Listeria
                              monocytogenes.

                              FSIS is responsible for enforcing food safety regulations and inspecting
                              poultry products to ensure they are safe and wholesome.4 Field personnel are
                              required to protect the public health by properly verifying an establishment’s
                              compliance with pathogen reduction, sanitation, and HACCP regulations.5

                              The following represent the types of inadequacies we found in the inspection
                              services provided by FSIS at Jack Lambersky Poultry Products, Inc.

                              • Number of Plant Deficiencies Recorded by FSIS Inspectors was
                                Relatively Few.

                                  A NR serves as FSIS’ official record of noncompliance with one or more
                                  regulatory requirements by an establishment. According to FSIS
                                  procedures,6 an inspector is required to record findings of noncompliance
                                  on an NR each time an instance of regulatory noncompliance is found by
                                  FSIS.

                                  During 2001 and 2002, FSIS inspection personnel issued relatively few
                                  NRs at Jack Lambersky Poultry Products, Inc. For example, only one NR
                                  was written at the plant in 2001. Furthermore, from May 29, 2002 to
                                  August 12, 2002, when recalled product was produced, FSIS issued no
                                  NRs. We shared this information with the in-plant inspection personnel
                                  and the circuit supervisor who agreed that the lack of NRs for this plant
                                  did not seem appropriate.


4
    The Poultry Products Inspection Act, 21 United States Code (U.S.C.) Chapter 10.
5
    FSIS Directive 5000.1, “Enforcement of Regulatory Requirements in Establishments Subject to HACCP System Regulations,”
    January 1998, and FSIS Directive 5000.1, Revision 1, “Verifying an Establishment’s Food Safety System,” May 21, 2003.
6
    FSIS Directive 5400.5, “Inspection System Activities,” January 1998.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                          6
                     The plant’s quality control staff documented repetitive deficiencies in the
                     plant’s sanitation records. Those deficiencies were the same type of issues
                     that FSIS inspection personnel documented as noncompliances at other
                     times. For the period May 29, 2002 to August 12, 2002, the deficiencies
                     included such things as construction dust, meat residue on equipment, and
                     leaking ceilings. This was the period in which no NRs were issued and
                     recalled product was produced.

                     Some deficiencies were shown to be “corrected” multiple times in a single
                     day, according to plant records. For example, condensation was identified
                     on the doorframe between the fry and oven room cooler on
                     September 26, 2002, at 6 a.m. According to plant records, this condition
                     was corrected, and identified again at 9 a.m. the same day and corrected
                     again. In total, the same deficiency, at the same location in the plant was
                     documented and shown to be corrected a total of five times in a single day.
                     Further, we identified at least five additional days where this exact
                     problem was reported and shown to be “corrected” three or more times in
                     a single day. This led us to question whether corrective action taken by
                     the plant was appropriate.

                     In discussing this issue with high-level FSIS officials, we were advised
                     that an issue of this nature might not cause concern if it occurred in the
                     raw product area, rather than in the finished, ready-to-eat product area.
                     However, as described in the following section, cooked product was taken
                     through the raw product area on the way to the cooler. Thus, we
                     concluded that these repetitive issues were cause for concern.

                     According to in-plant inspection personnel, they periodically reviewed the
                     deficiencies noted in the plant’s sanitation records. However, the in-plant
                     inspection personnel claimed that they did not record repetitive sanitation
                     deficiencies identified by FSIS and similar to those noted by the plant on
                     an NR because after informing the plant of the deficiency, the plant
                     immediately took action to correct the problem. The FSIS Philadelphia
                     District Office noted the lack of NRs written by inspectors in the District
                     as a concern. In October 2002, District management distributed its
                     priorities to District inspection personnel. In this document, District
                     management emphasized that inspection personnel must write NRs.
                     Further, District management considered it an unacceptable practice for
                     the inspector to merely inform the plant verbally of noncompliance with
                     regulatory requirements without documentation.




USDA/OIG-AUDIT No. 24601-02-Hy                                                                 7
                                  • Potential Product Contamination Not Timely Corrected

                                       If exposed finished product crosses through raw product areas, product
                                       contamination may occur. According to regulations,7 plants are required
                                       to segregate exposed finished product from raw product to help prevent
                                       product contamination. At Jack Lambersky Poultry Products, Inc., FSIS
                                       inspection personnel identified that cooked product traveled through the
                                       raw product area on its way to the cooler. According to the FSIS
                                       Consumer Safety Officer who reviewed plant operations, finished product
                                       exposure to raw product areas might have contributed to the product
                                       becoming contaminated with Listeria monocytogenes.

                                       An inspector, who was at the plant from April 7, 2002 through
                                       October 8, 2002, was aware that this practice was occurring. However,
                                       the inspector issued no NRs to address this deficiency. The inspector
                                       claimed no NRs could be issued because FSIS could not control a plant’s
                                       production flow. The circuit supervisor concurred with the inspector’s
                                       claim. However, the FSIS Consumer Safety Officer recommended
                                       corrective action as part of the review performed in October 2002. On
                                       November 13, 2002, the plant submitted procedures to the district office
                                       for decreasing the potential product contamination.

                                  • Plant’s Need for a Listeria Testing Program Not Identified.

                                       Product samples taken by FSIS in 1990 and 1994 from the Jack
                                       Lambersky Poultry Products, Inc., plant tested positive for Listeria
                                       monocytogenes. According to regulations,8 plants should establish
                                       controls for a food safety hazard that is reasonably likely to occur based
                                       on plant history. Based on the previous positive test results, plant and
                                       inspection officials should have identified Listeria as a food safety hazard
                                       that was likely to occur.

                                       According to the FSIS Consumer Safety Officer that reviewed plant
                                       operations, Jack Lambersky Poultry Products, Inc., reassessed its HACCP
                                       plan in 1999 and incorrectly concluded that Listeria monocytogenes was
                                       not a hazard likely to occur. Consequently, Jack Lambersky Poultry
                                       Products, Inc., had no testing program for Listeria monocytogenes and did
                                       not outline preventive measures to control the hazard in its HACCP plan
                                       until October 2002, when it included a testing program in response to the
                                       Consumer Safety Officer’s review. Listeria testing is a way of indicating
                                       whether or not the pathogen is present.



7
    Title 9, Code of Federal Regulations (C.F.R.) §416.2(b)(4), January 2002.
8
    9 C.F.R. §417.2(a), January 2002.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                    8
                                     According to FSIS District inspection officials, inspection personnel at the
                                     plant lacked sufficient training to adequately review HACCP plans and to
                                     detect that Listeria monocytogenes was not identified as a potential
                                     hazard. In April 2003, FSIS initiated HACCP training for inspectors to
                                     reinforce their food safety duties. The training included such topics as
                                     HACCP verification, pathogen reduction, and food safety sampling.
                                     Unlike initial HACCP training, the training on food safety duties is
                                     tailored to an inspector’s assignment based on the types of products
                                     produced at the plant where inspectors are assigned. In May 2003, FSIS
                                     issued a revised directive9 on verifying a plant’s food safety system. This
                                     directive provides comprehensive direction to inspection personnel on
                                     how they are to protect the public health by properly verifying an
                                     establishment’s compliance with pathogen reduction, sanitation, and
                                     HACCP regulations. The training for the more than 400 inspectors in the
                                     Philadelphia District began in October 2003. The District plans to
                                     complete training of all inspectors in 2004. Accordingly, we are making
                                     no additional recommendations regarding training for inspectors.

                                     As noted in our report on the ConAgra recall,10 FSIS inspection personnel
                                     lacked the skills to critically analyze the adequacy of HACCP plans. In
                                     response to this finding, FSIS committed to hire and train a force of
                                     consumer safety officers to help review HACCP plans. Our assessment of
                                     FSIS’ response disclosed that it lacked an analysis of how many qualified
                                     staff will be needed to review all HACCP plans and how much time will
                                     be needed to complete the reviews. Accordingly, we recommended the
                                     development of a written, time-phased plan for completing consumer
                                     safety officer reviews of HACCP plans. We continue to work with FSIS
                                     to reach agreement on an acceptable corrective action plan.

                                     During the course of our review, we learned that Jack Lambersky Poultry
                                     Products, Inc., implemented a Listeria testing program in August 2002 to
                                     address concerns raised by a customer. The customer paid for a consultant
                                     to review the operations at the plant. Plant officials then worked with the
                                     consultant to develop its Listeria testing program. FSIS was aware that
                                     the plant had implemented the program and FSIS reviewed the test results.
                                     According to our analysis of the plant’s test results, the percentage of
                                     environmental samples testing positive for Listeria had decreased since
                                     implementation of the testing program. In August 2002, 18 percent of the
                                     environmental samples tested positive for Listeria. In May 2003, only
                                     0.5 percent of the environmental samples tested positive for Listeria.

                                     The plant’s HACCP plan now identifies Listeria monocytogenes as a
                                     potential food safety hazard. Furthermore, the HACCP plan now includes
9
     FSIS Directive 5000.1, Revision 1, “Verifying an Establishment’s Food Safety System,” May 21, 2003.
10
     Audit Report No. 24601-2-KC, “Food Safety and Inspection Service Oversight of Production Process and Recall at ConAgra Plant
     (Establishment 969),” issued September 30, 2003.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                                 9
                                  finished product testing on a monthly basis for Listeria monocytogenes.
                                  These actions are consistent with changes in inspection procedures, which
                                  require plants to have controls to prevent products from being
                                  contaminated with Listeria monocytogenes.11

                              • Supervision of Inspection Personnel was Minimal.

                                  An FSIS Circuit Supervisor oversees the work of in-plant inspection
                                  personnel by periodically observing an inspector perform his/her duties
                                  and reviewing documentation of inspection activities on file at the plant.
                                  Through an analysis of time and attendance reports, we determined the
                                  circuit supervisor did not visit Jack Lambersky Poultry Products, Inc.,
                                  from June 2, 2002 through September 21, 2002, when recalled product
                                  was produced. According to the circuit supervisor, his workload at
                                  56 plants hindered his oversight of FSIS inspection personnel at Jack
                                  Lambersky Poultry Products, Inc. The Deputy District Manager informed
                                  us that she provided minimal oversight and supervision to the circuit
                                  supervisor.

                                  In October 2002, FSIS’ Philadelphia District Office implemented the
                                  agency procedure12 that requires the circuit supervisor to perform and
                                  document three reviews per year for each inspector. This procedure
                                  formalized FSIS’ process for evaluating inspector performance. However,
                                  the circuit supervisor informed us that he did not implement this review at
                                  the Jack Lambersky Poultry Products, Inc., plant due to the oversight
                                  being provided as part of the recall.

                                  In November 2002, Jack Lambersky Poultry Products, Inc., recalled
                                  approximately 4.2 million pounds of ready-to-eat poultry products that
                                  were potentially contaminated with Listeria monocytogenes. Because
                                  FSIS did not identify material instances of noncompliance by the plant, the
                                  agency did not take action that could have prevented the potential
                                  contamination. Further, inspection personnel did not recognize that the
                                  plant should have had a Listeria testing program prior to the recall. To
                                  address the deficiencies in inspection services at Jack Lambersky Poultry
                                  Products, Inc., FSIS should develop and implement a plan to strengthen
                                  inspector performance and supervisory oversight.

Recommendation No. 1

                              Develop and implement a plan to address the weaknesses in inspection
                              services provided at Jack Lambersky Poultry Products, Inc. The plan should
                              address ways to strengthen inspector performance and supervisory oversight.
11
     FSIS Directive 10,240.3 “Microbial Sampling of Ready-to-Eat Products for the FSIS Verification Testing Program,”
     December 9, 2002. These changes were codified in regulations in October 2003 at 9 C.F.R. §430.
12
     FSIS Directive 4430.3, “In-Plant Performance System Reviews,” June 17, 2002.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                    10
                   Agency Response.

                   To address the issues identified at Jack Lambersky Poultry Products, Inc.
                   (Jack Lambersky), FSIS stated that the agency took immediate and positive
                   corrective action, to include a comprehensive food safety assessment that was
                   performed, along with product and environmental sampling, from
                   September 30, 2002 to October 4, 2002. As a result of that assessment, a
                   Notice of Intended Enforcement was issued on October 7, 2002. The
                   company responded with a written summary plan of corrective actions and
                   preventative measures and, subsequently, a Deferral Action was issued on
                   November 1, 2002. The firm worked under the deferral action along with a
                   very specifically designed Verification Plan used by the inspection team at the
                   plant to verify the various corrective actions. During the verification period,
                   both environmental sampling and finished ready-to-eat (RTE) product
                   sampling took place, which were used to verify the effectiveness of the
                   corrective actions. All samples taken were reported negative for Listeria and
                   subsequently, a Letter of Information dated, April 14, 2003, was issued
                   closing the action.

                   The company also hired a consultant and reassessed its Sanitation Standard
                   Operating Procedures (SSOP) and HACCP plans. The reassessment
                   addressed product handling, product flow, and processing. The firm installed
                   a post-pasteurization process for the fully cooked ready-to-eat items as an
                   additional lethality step. Jack Lambersky has established an ongoing Listeria
                   sampling plan for environmental and finished product. Ongoing FSIS
                   verification sampling from November 2002 to January 2004 has been
                   negative.

                   Several relief GS-10 Consumer Safety Inspectors (CSI) with knowledge of
                   RTE fully cooked products were detailed in November 2002, to Jack
                   Lambersky. They assisted in providing additional inspection expertise in
                   monitoring the progress under the Verification Plan.

                   The two (2) CSIs that were rotating on the Jack Lambersky assignment during
                   2002 are no longer on the assignment. One has retired and the other is on
                   Leave Without Pay while in the process of applying for disability retirement.

                   All CSIs, including relief inspectors with the Philadelphia District, have been,
                   or are scheduled, to attend the Food Safety Regulatory Essentials (FSRE)
                   training by June 2004. The FSRE training stresses the understanding of
                   HACCP concepts along with production and handling of RTE fully cooked
                   product. The CSI’s currently assigned at Jack Lambersky have attended the
                   FSRE training.



USDA/OIG-AUDIT No. 24601-02-Hy                                                                  11
                   In addition, the Trenton Circuit has been restructured to more equitably
                   distribute the workload between circuits. This allows the Circuit Supervisor
                   to spend more time with plants encountering problems. In addition, the
                   Circuit Supervisor has attended the Frontline Supervisor Training developed
                   by FSIS to enhance supervisory skills.

                   The District Manager has restructured the Circuit reporting lines to each
                   Deputy District Manager so that there is a more equitable distribution of
                   supervisory workload. The responsible deputies can then give more attention
                   to circuits and plants encountering problems within their jurisdiction.

                   FSIS has focused extensively during the past two years on strengthening
                   supervisory oversight of in-plant inspection personnel.         The In-plant
                   Performance System (IPPS) is in place and circuit supervisors have clear
                   standards and expectations for discussion with in-plant inspection personnel
                   during their on-site visits. This system establishes a formal process so
                   frontline supervisors can be sure that inspection personnel carry out their
                   assigned job responsibilities. All field supervisors have been trained to use
                   this system. The IPPS review helps the supervisor to: identify and address
                   the need to improve an employee’s knowledge about his or her
                   responsibilities; correlate employees to ensure consistency in methods and
                   application of methods; identify and address performance problems; and
                   recognize and reward successful employee performance.

                   OIG Position.

                   FSIS’ response to the recommendation summarizes a number of items we
                   analyzed during our fieldwork and reported on in Finding No. 1 (e.g.,
                   comprehensive food safety assessment, consultant hired by Jack Lambersky
                   Poultry Products, Inc., performance by in-plant inspection personnel, and
                   training of inspectors on food safety duties). In addition, FSIS’ response
                   describes the restructuring of the Philadelphia District and the Trenton Circuit
                   as well as the implementation of IPPS as the techniques used to strengthen
                   supervisory oversight of in-plant inspection personnel. However, the
                   response does not specify dates when actions occurred or how the agency will
                   obtain assurance that the necessary improvements are in place at Jack
                   Lambersky Poultry Products, Inc.

                   To reach management decision, FSIS needs to provide the dates that the
                   inspectors at Jack Lambersky Poultry Products, Inc. attended the FSRE
                   Training. FSIS needs to provide the dates when the Trenton Circuit
                   Supervisor attended the Frontline Supervisor Training. Finally, FSIS needs to
                   provide the dates when it expects to complete an assessment to validate that
                   inspector performance and supervisory oversight have been strengthened and
                   that the Trenton Circuit Supervisor is using IPPS to evaluate how inspection
                   personnel carry out their assigned job responsibilities.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                  12
Recommendation No. 2

                   Clarify, in writing, with FSIS inspection personnel the requirements for plants
                   to segregate exposed finished product from raw product to help prevent
                   product contamination.

                   Agency Response.

                   It is not necessary to amend agency procedures to establish such a
                   requirement since establishments have a responsibility to meet
                   9 C.F.R. 416.1. In accordance with 9 C.F.R. 416.1 each official establishment
                   is required to operate and be maintained in a manner sufficient to prevent the
                   creation of insanitary conditions and to ensure that product is not adulterated.
                   Under 9 C.F.R. 430.4, “Control of Listeria monocytogenes in post-lethality
                   exposed ready-to-eat products” establishments are required to maintain
                   sanitation in the post-lethality processing environment in accordance with
                   9 C.F.R. 416. Further, it is not consistent with the policy framework of the
                   Pathogen Reduction/HACCP regulation to specify to plants how to construct
                   their control systems. FSIS procedures and regulatory requirements include
                   an assessment of specified establishments by a trained Enforcement
                   Investigations and Analysis Officer (EIAO) of the scientific design of
                   industry HACCP plans and food safety systems.

                   Trained EIAOs are capable of conducting a complete assessment of the
                   design of a plant’s control systems. These systems include HACCP and
                   SSOP, generic E. coli testing procedures, and Salmonella data. The EIAO
                   assessment involves consideration of all food safety aspects related to the
                   establishment and the products, processes, and environment within the
                   establishment.

                   On October 2, 2003, FSIS issued FSIS Directive 10,240.4, “Verification
                   Procedures for Listeria monocytogenes Regulations and Microbial Sampling
                   of Ready-to-Eat (RTE) Products for the FSIS Verification Testing Program.”
                   This directive provides CSIs and EIAOs with instructions for verifying
                   whether establishments are complying with regulations in 9 C.F.R. part 430,
                   Requirements for Specific Classes of Product. In addition, this directive
                   includes verification procedures for RTE products other than those applicable
                   to 9 C.F.R. 430.

                   OIG Position.

                   We accept FSIS’ management decision. The directive issued subsequent to
                   audit fieldwork includes detailed instruction for verifying compliance. For
                   final action, FSIS needs to provide the Office of the Chief Financial Officer
                   (OCFO) with documentation showing that FSIS Directive 10,240.4, issued

USDA/OIG-AUDIT No. 24601-02-Hy                                                                  13
                                 October 2, 2003, has been adequately implemented at Jack Lambersky
                                 Poultry Products, Inc.


Finding 2                        Weaknesses in Inspection Services Subsequent to the Recall

                                 FSIS provided inadequate inspection services at the Jack Lambersky Poultry
                                 Products, Inc., plant following the recall of ready-to-eat poultry products.
                                 This occurred because the inspector was not able to correctly perform routine
                                 inspection procedures, as demonstrated to us during our audit. As a result,
                                 FSIS is not enforcing regulations to ensure that poultry products being
                                 produced by Jack Lambersky Poultry Products, Inc., are safe and wholesome.

                                 According to FSIS procedures,13 agency personnel are responsible for
                                 enforcing food safety regulations and inspecting poultry products to ensure
                                 they are safe and wholesome. Field personnel are to protect the public health
                                 by properly verifying an establishment’s compliance with pathogen reduction,
                                 sanitation, and HACCP regulations.14          FSIS is also responsible for
                                 maintaining the security and integrity of laboratory samples.15

                                 The inspector at the Jack Lambersky Poultry Products, Inc., is assigned to the
                                 plant for a 6-month period. In April 2003, the inspector began his rotation,
                                 which was two weeks before our first visit to the plant. Before being assigned
                                 to Jack Lambersky Poultry Products, Inc., the inspector performed similar
                                 inspection assignments at other plants within the circuit. The following
                                 represent the types of inadequacies we found in the inspection services
                                 provided by FSIS at Jack Lambersky Poultry Products, Inc.

                                 • Inspection Personnel Inadequately Completed Scheduled Procedures.

                                     Scheduled procedures are assigned by FSIS’ Performance Based
                                     Inspection System (PBIS) for inspectors to verify an establishment’s
                                     compliance with pathogen reduction, sanitation, and HACCP
                                     requirements. On May 14, 2003, we observed the FSIS inspector perform
                                     scheduled procedures regarding plant sanitation, product temperature
                                     monitoring, and product labeling. While being observed by the circuit
                                     supervisor, the inspector failed to properly complete the scheduled
                                     procedures. The circuit supervisor took control of the situation to ensure
                                     the procedures were correctly performed.

                                     A scheduled procedure for product temperature monitoring provides
                                     inspection personnel an indication of whether the plant is ensuring that

13
     The Poultry Products Inspection Act, 21 U.S.C. Chapter 10.
14
     FSIS Directive 5000.1, “Enforcement of Regulatory Requirements in Establishments Subject to HACCP System Regulations,”
     January 1998, and FSIS Directive 5000.1, Revision 1, “Verifying an Establishment’s Food Safety System,” May 21, 2003.
15
     FSIS Directive 7355.1, Revision 2, “Use of Sample Seals for Laboratory Samples and Other Applications,” dated December 3, 2002.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                                   14
                      processing conditions do not promote the growth of Listeria
                      monocytogenes. This is because the procedure tests how a plant monitors
                      adherence to critical temperatures in the production process. Jack
                      Lambersky Poultry Products, Inc., included critical control points at the
                      cooking, cooling, and post-pasteurization phases in the production
                      process. The plant identified these as points in the process where Listeria
                      monocytogenes is a potential hazard if proper temperatures are not
                      maintained.    In performing the scheduled procedure for product
                      temperature monitoring, the inspector demonstrated that he was not aware
                      of how the plant documented its monitoring efforts with the HACCP plan.

                   • Inspection Personnel Did Not Correctly Perform Sampling Procedures.

                      FSIS in-plant inspection personnel did not secure samples for pick-up by a
                      shipping agent and did not select product samples randomly.

                      Custody of Samples Not Secured. In response to the recall, the FSIS
                      Philadelphia District Office implemented a verification-sampling regimen
                      at Jack Lambersky Poultry Products, Inc. As instructed by the district
                      office, this regimen consisted of one randomly selected finished product
                      sample per week for 16 consecutive weeks. Each random sample would
                      then be tested for Listeria monocytogenes at one of the three nationwide
                      FSIS laboratories. The inspector must box and ship the sample using a
                      shipping agent.

                      On April 24, 2003, we observed the inspector select a finished product
                      sample as part of the verification-sampling regimen. Upon selecting the
                      sample, the inspector placed it in a box and sealed it with a shipping
                      agent’s label. The inspector then placed the sample at the loading dock
                      entrance of the plant awaiting pick-up by the shipping agent. The sample
                      was unsecured as the inspector departed the plant for the day. FSIS
                      procedures do not require inspectors to maintain custody of samples
                      before collection by a shipping agent. As noted in our report on the
                      ConAgra recall, FSIS lacked instructions requiring inspectors to maintain
                      custody of samples before being collected by the shipping agent.
                      Accordingly, we recommended revising current instructions to require that
                      laboratory samples be under the direct custody and control of FSIS
                      personnel until the sample can be provided directly to the delivery service.
                      We continue to work with FSIS to obtain an acceptable action plan to
                      correct this weakness. Therefore, no additional recommendations will be
                      made as a result of this review.

                      Product Samples Not Randomly Selected. The Philadelphia District
                      Office’s verification-sampling regimen consisted of one randomly selected
                      finished product sample per week for 16 consecutive weeks. Instead of
                      taking the sample on varying days of the week (i.e., randomly), we found
USDA/OIG-AUDIT No. 24601-02-Hy                                                                 15
                                    that FSIS inspection personnel took 15 of the 16 samples on the same day
                                    of the week each week. This method of taking the sample provided the
                                    plant with the ability to predict which day of the week the sample would
                                    be taken. This method potentially allowed the plant to thoroughly clean
                                    the facility before cooking the product from which the sample would be
                                    taken.

                                    FSIS procedures do not specify a methodology that instructs inspectors on
                                    how to take samples randomly.16

                                    As noted in our report on the ConAgra recall, an official of Montana
                                    Quality Foods stated that he was aware that FSIS had to pull samples by
                                    about noon on the appointed day in order to have the sample ready for the
                                    carrier. This official stated that since the sampling is not random, he could
                                    protect his own product from ever being sampled. This could be done by
                                    delaying the start of the grinding operation to just before the time to take
                                    the sample and by switching at that time to product from another source.

                                Due to deficiencies in the inspection services provided by FSIS at the Jack
                                Lambersky Poultry Products, Inc. plant, FSIS had reduced assurance that the
                                products produced are safe and wholesome. FSIS needs to develop and
                                implement controls to ensure that inspectors adequately complete scheduled
                                procedures and are selecting product samples in a random manner at Jack
                                Lambersky Poultry Products, Inc.

Recommendation No. 3

                                Determine whether the inspector demonstrated performance weaknesses at
                                other plants for which he was responsible. Based on the findings of this
                                evaluation, initiate the appropriate actions.

                                Agency Response.

                                Based on a review of its Quarterly 5-50 reports and feedback from the Circuit
                                Supervisor, the Agency determined that no additional actions were warranted
                                at other firms within the rotation. The “Quarterly 5-50 reports” are utilized to
                                verify that none of the establishments are on any of the generated reports.
                                Specifically, the “Summary of Establishments with Zero Non-compliances”
                                and the “District Not Performed Summary by Procedure Code, with
                                Comparison of Unscheduled to Not Performed Report” were reviewed. These
                                reports are sent out to the Circuit Supervisors on a quarterly basis and then
                                returned to the Deputy District Manager with explanation of why plants are
                                listed on the reports. The Deputy District Manager uses the reports to decide
16
     FSIS Directive 10, 210.1, Amendment 5, “Unified Sampling Form,” February 11, 2003, FSIS Directive 10,230.2, “Procedures for
     Collecting and Submitting Domestic Samples for Microbiological Analysis,” August 6, 1992, and FSIS Directive 10,625.1,
     “Procedures for Evidentiary Samples,” February 26, 1986.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                               16
                   whether there is a need for further assessment. In addition, these reports
                   allow the Circuit Supervisors to have a “snapshot” look at the performance of
                   plants within their circuit for a three-month period. The Circuit Supervisors
                   can then better tailor their time to monitor plants that appear on the report
                   more readily, find and solve problems, and provide feedback and supervision
                   to the assigned CSI.

                   During the fall of 2002, the Philadelphia District Office assessed the need for
                   reviews to be done at RTE turkey plants. Jack Lambersky was reviewed, with
                   subsequent enforcement action instituted against the establishment. The
                   District also performed a Performance Based Inspection System (PBIS)
                   review of all the establishments that were under the Jack Lambersky rotation
                   pattern. It should be noted that in the fall of 2002, the Jack Lambersky
                   assignment was under the Philadelphia District for only one quarter, making it
                   difficult to assess the performance of the inspection team in so short a time
                   frame. However, the Philadelphia District did take action to react to the
                   public health issues with RTE turkey products and increase inspection
                   presence within the Jack Lambersky rotation.

                   OIG Position.

                   To reach management decision, FSIS needs to provide the documentation it
                   evaluated with respect to the specific inspector and a summary of the
                   feedback FSIS received to determine that no additional actions were
                   warranted at other firms within the rotation.

Recommendation No. 4

                   Develop and implement a plan to ensure that inspectors are capable to
                   adequately complete scheduled inspection procedures assigned by the PBIS.

                   Agency Response.

                   FSIS has focused extensively during the past two years on strengthening
                   supervisory oversight of in-plant inspection personnel. The IPPS is in place
                   and circuit supervisors have clear standards and expectations for discussion
                   with in-plant inspection personnel during their on-site visits. This system
                   establishes a formal process so frontline supervisors can be sure that
                   inspection personnel carry out their assigned job responsibilities. All field
                   supervisors have been trained to use this system. The IPPS review helps the
                   supervisor to: identify and address the need to improve an employee’s
                   knowledge about his or her responsibilities; encourage correlation with
                   employees to ensure consistency in methods and application of methods;
                   identify and address performance problems; and recognize and reward
                   successful employee performance.

USDA/OIG-AUDIT No. 24601-02-Hy                                                                 17
                   Additionally, the Philadelphia District Office has implemented a Continuous
                   Improvement Plan that is being applied to all Circuits. The focus of the plan
                   is to improve Non-compliance Records documentation by inspection
                   personnel, and the review of corrective and preventive response by plant
                   management. This will result in more consistent oversight of inspection
                   performance in the conduct of scheduled inspection procedures, improved
                   understanding among inspection program personnel and supervisors of the
                   application of policies and procedures, and early identification of any
                   potential performance problems.

                   FSIS is also in the second year of its initiative to upgrade the training of
                   in-plant inspection personnel on proper application of HACCP and SSOP
                   regulatory requirements. The FSRE training program focuses on proper
                   understanding and effective application of regulatory requirements by in-plant
                   inspection personnel. The training is based on the recently issued FSIS
                   Directive 5000.1, Revision 1, “Verifying an Establishment’s Food Safety
                   System,” which outlines the full range of inspection responsibilities in relation
                   to the Pathogen Reduction/HACCP regulations. The FSRE training is
                   tailored to an inspector’s assignment. All persons receiving the training get
                   the foundation training and customized training. The foundation training
                   covers the Rules of Practice; Sanitation Performance Standards; and
                   Sanitation Standard Operating Procedures. The customized training covers
                   HACCP verification; Pathogen Reduction; and food safety sampling.

                   FSIS utilizes a number of reports generated from the PBIS database to track
                   plant performance, such as the “Quarterly 5-50 reports,” the “Summary of
                   Establishments with Zero Non-Compliances,” and the “District Not
                   Performed Summary by Procedure Code, with Comparison of Unscheduled to
                   Not Performed Report.” These reports are sent out to the Circuit Supervisors
                   on a quarterly basis and then returned to the Deputy District Manager with
                   explanations of why plants are listed on the reports. The Deputy District
                   Manager then decides whether there is a need for further assessment. These
                   reports allow the Circuit Supervisors to have a “snapshot” look at the
                   performance of plants within their Circuits for a three-month period. The
                   Circuit Supervisors can then better tailor their time to target plants that show
                   up on the report and more readily find and solve problems and provide
                   feedback and supervision to the assigned Consumer Safety Inspector.

                   FSIS inspection program personnel in the Philadelphia District will have
                   completed FSRE training by June 2004.

                   OIG Position.

                   We accept FSIS’ management decision. For final action, FSIS needs to
                   provide OCFO with documentation showing the dates when inspection
                   personnel in the Philadelphia District completed the FSRE training. In
USDA/OIG-AUDIT No. 24601-02-Hy                                                                   18
                   addition, FSIS needs to provide OCFO documentation that validates that the
                   Circuit Supervisors in the Philadelphia District are using IPPS to evaluate
                   how inspection personnel carry out their assigned job responsibilities.

Recommendation No. 5

                   Develop and implement procedures to ensure that inspectors are selecting
                   product samples in a random manner. This should include, but not be limited
                   to, varying the days and times when samples are selected.

                   Agency Response.

                   FSIS Directive 10,210.1, “Unified Sampling Form,” Amendment 6, dated
                   December 18, 2003, specifies instructions for FSIS inspection program
                   personnel to randomly select samples in conducting sampling procedures. To
                   address the OIG concerns that sampling is not being conducted in a random
                   manner, the FSIS is reaffirming through its ongoing training of inspection
                   program personnel, the requirements for randomly selecting samples in
                   performing sampling procedures. In particular, instructions and guidance are
                   being provided in the Agency’s ongoing FSRE training initiated in
                   April 2003. The training reference material used in the FSRE course was
                   provided in the response.

                   OIG Position.

                   We do not accept FSIS’ management decision. FSIS’ response addresses the
                   development of procedures to ensure that inspectors are selecting product
                   samples in a random manner. However, the response does not explain how
                   the agency will make certain that this guidance is being properly implemented
                   at the plant level. To reach management decision for this recommendation,
                   FSIS needs to provide details of the management controls to be put in place
                   so that the agency knows whether or not samples are being taken in
                   accordance with the revised policy and the date by which these controls will
                   be implemented.


Finding 3          Inadequate Documentation on the Amount and Disposition of
                   Recalled Product

                   FSIS did not obtain adequate documentation from Jack Lambersky Poultry
                   Products, Inc., to determine if the plant identified and accounted for all
                   product subject to the recall. This occurred because FSIS lacked specific
                   procedures requiring compliance officers to obtain and verify documentation
                   supporting this determination. Consequently, FSIS cannot ensure that all
                   reasonable efforts were made to remove from commerce the approximately


USDA/OIG-AUDIT No. 24601-02-Hy                                                               19
                               4.2 million pounds of ready-to-eat products potentially contaminated with
                               Listeria monocytogenes.

                               A recall is a voluntary action taken by a manufacturer or distributor to remove
                               adulterated or misbranded products from commerce that may present a health
                               hazard to consumers. According to FSIS procedures,17 agency personnel are
                               responsible for overseeing recall activities and verifying information provided
                               by the firm (e.g., product distribution). Yet, the procedures do not require
                               FSIS to validate the amount of product produced, in inventory, returned,
                               destroyed, or consumed.

                               According to an FSIS District official, limited resources hindered the
                               District’s ability to validate the recall information provided by Jack
                               Lambersky Poultry Products, Inc. Nonetheless, a review of supporting
                               documentation, even on a test basis, would have provided FSIS a basis for
                               determining whether the type and amount of products Jack Lambersky
                               Poultry Products, Inc., reported as being produced, in inventory, returned,
                               destroyed, or consumed, was accurate.

                               The Jack Lambersky Poultry Products, Inc. recall closeout report, which
                               summarizes the plant’s recovery efforts, was provided to FSIS on
                               February 20, 2003. Of the 4,201,049 pounds recalled, the plant claimed that
                               61,713 pounds were in the plant’s inventory when the recall was initiated;
                               136,067 pounds were returned from customers; 15,771 pounds were
                               destroyed by customers; and 3,987,498 pounds were not returned and thus
                               assumed to be either consumed or destroyed. The plant also reported that the
                               recalled products in inventory and the products returned by customers were
                               destroyed at a landfill.

                               We found that Jack Lambersky Poultry Products, Inc., did not have adequate
                               documentation to support the amount of recalled products returned from
                               customers. The firm did not implement a formal process for tracking product
                               returns. Jack Lambersky Poultry Products, Inc., calculated the amount of
                               recalled products that customers returned by subtracting the quantity in
                               inventory from the total amount destroyed at the landfill (197,780 pounds),
                               which included both products in inventory (61,713 pounds) and returned
                               (136,067 pounds). We concluded that the amount of products returned by
                               customers was merely a calculation, and could not be fully substantiated.

                               Jack Lambersky Poultry Products, Inc., reported that 21 customers destroyed
                               15,771 pounds of recalled product. However, we determined that this amount
                               was not adequately supported by the credit memoranda retained by the plant.
                               For example, one customer reported that it destroyed 237 pounds of recalled

17
     FSIS Directive 8080.1, Revision 3, “Recall of Meat and Poultry Products,” issued January 19, 2000, and Compliance and
     Investigations Division Protocol, Section VI—Recalls, issued September 1997.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                         20
                   product, but Jack Lambersky Poultry Products, Inc., reported as destroyed
                   4 times this amount (955 pounds). Jack Lambersky Poultry Products, Inc.,
                   did not document and could not explain how they determined this number.

                   Due to the lack of procedures, FSIS cannot ensure that all reasonable efforts
                   were made to remove the approximately 4.2 million pounds of product
                   recalled by Jack Lambersky Poultry Products, Inc. from commerce. Because
                   of the lack of documentation maintained by the company, additional
                   follow up by FSIS is no longer likely to be effective. To prevent the
                   recurrence of this type of situation in the future, FSIS needs to develop and
                   implement procedures to verify the completeness of a firm’s recall.

Recommendation No. 6

                   Develop and implement procedures requiring compliance officers to oversee
                   recall activities to ensure the adequacy of documentation provided by the firm
                   and validate the completeness of the recall.

                   Agency Response.

                   FSIS is revising Directive 8080.1, “Recall of Meat and Poultry Products,” to
                   enhance the instructions and guidance given to agency personnel responsible
                   for verifying the effectiveness of the recalling establishment in conducting the
                   recall. The revised directive will provide a verification process to help ensure
                   that agency personnel acquire the appropriate documentation from the
                   recalling establishment. FSIS will issue the revised directive by June 2004.

                   OIG Position.

                   We do not accept FSIS’ management decision. FSIS issued Directive 8080.1,
                   Revision 4, on May 24, 2004. The Directive did not include specific direction
                   that compliance officers obtain and verify documentation from the recalling
                   firm to determine whether the plant identified and accounted for all product
                   subject to recall. As reported in Finding No. 3, due to the lack of specific
                   FSIS procedures, FSIS personnel did not obtain adequate documentation from
                   Jack Lambersky Poultry Products, Inc., to determine if the plant identified
                   and accounted for all product subject to the recall.

                   To reach management decision, FSIS needs to incorporate procedures into
                   Directive 8080.1 that require compliance officers to ensure the adequacy of
                   documentation provided by the firm and validate the completeness of the
                   recall. In the interim, FSIS needs to implement compensating controls to
                   ensure that documentation provided by the firm is adequate and that the recall
                   is complete.



USDA/OIG-AUDIT No. 24601-02-Hy                                                                  21
Section 2. FSIS Oversight of Recalls of Products Potentially Contaminated with
           Listeria Monocytogenes

                    A recall is a voluntary action taken by a manufacturer or distributor to remove
                    adulterated or misbranded products from commerce that may present a health
                    hazard to consumers.

                    FSIS is responsible for overseeing all recall activities by official meat and
                    poultry establishments, including providing scientific and technical advice.
                    FSIS’ primary role is to monitor the effectiveness of the firm’s recall
                    procedures. Compliance officers are responsible for completing a sufficient
                    number of effectiveness checks to verify that consignees received adequate
                    notice of the recall and the products were located, controlled, and removed
                    from commerce. When it is determined that all reasonable efforts have been
                    made to effect the recall and that all available product has been removed or
                    corrected to the extent possible, the recall will be considered complete.

                    The deficiencies we found were similar to those identified in the ConAgra
                    recall in that FSIS’ oversight of the recalls was ineffective. In response to
                    recommendations in the ConAgra report, FSIS agreed to strengthen recall
                    controls and procedures, which the agency expects to finalize by July 2004.

                    We found that FSIS did not critically review recall reports and information
                    supporting the agency’s oversight of food safety recalls. For example, one
                    district that received recalled products did not perform any effectiveness
                    checks. The discrepancies, although easily identifiable, went undetected and
                    were not followed up on by FSIS officials. From January 1, 2002 to
                    January 3, 2003, there were 15 recalls involving approximately 32.2 million
                    pounds of ready-to-eat products potentially contaminated with
                    Listeria monocytogenes that were produced by plants in the Northeastern
                    United States.

                    We also learned that FSIS did not ensure that the recall of 1.7 million pounds
                    of ready-to-eat poultry products distributed to NSLP was effective. Due to
                    the lack of FSIS oversight of the recall process, there were 81 effectiveness
                    checks in which the product disposition could not be determined. For
                    example, one effectiveness check indicated that 1,500 pounds of recalled
                    product was temporarily on hold at a warehouse and would be returned to the
                    Pilgrim’s Pride Corporation. However, there was no record of a followup
                    review conducted by the FSIS Compliance Officer to ensure that the products
                    were actually returned to the recalling firm.




USDA/OIG-AUDIT No. 24601-02-Hy                                                                  22
Finding 4                          Effectiveness of Food Safety Recalls Unknown by FSIS

                                  FSIS had no assurance that the recalls of ready-to-eat product potentially
                                  contaminated with Listeria monocytogenes were effective. This occurred
                                  because FSIS officials did not critically review recall reports and information
                                  supporting the agency’s oversight of food safety recalls. Due to FSIS’ lack of
                                  oversight there was an increased risk that some of the 31.6 million pounds of
                                  product, recalled by 3 of the 15 plants in the Northeastern United States, was
                                  not removed from commerce.

                                  In order to monitor the effectiveness of the recall, FSIS procedures18 state that
                                  compliance officers are to complete a sufficient number of effectiveness
                                  checks to verify that consignees received adequate notice of the recall and the
                                  products were located, controlled, and removed from commerce. When FSIS
                                  determines that all reasonable efforts have been made to effect the recall and
                                  that all available product has been removed, the recall will be considered
                                  complete.

                                  We selected FSIS files for 13 of the 15 recalls of product from plants in the
                                  Northeastern United States for review. We did not review the files for two of
                                  the recalls because the total pounds associated with these recalls were very
                                  minimal. We noted the following types of discrepancies that had not been
                                  resolved by FSIS officials in 3 of the 13 recalls reviewed. We found similar
                                  deficiencies in FSIS’ oversight and control of the ConAgra recall.

                                  • Prior to the recall, USDA purchased 1.7 million pounds of ready-to-eat
                                    poultry products from the Pilgrim’s Pride Corporation. This product was
                                    donated to 20 States for use in the NSLP. On October 12, 2002, Pilgrim’s
                                    Pride Corporation recalled approximately 27.4 million pounds of
                                    ready-to-eat poultry products potentially contaminated with Listeria
                                    monocytogenes. The recalled product included the 1.7 million pounds of
                                    product purchased by USDA. FSIS did not ensure that the recall of the
                                    product distributed for use in the NSLP was effective. For example, we
                                    identified 80 effectiveness checks in which compliance officers did not
                                    follow up with schools and warehouses to determine how they disposed of
                                    potentially contaminated product. (See Finding No. 5.)

                                  • On November 2, 2002, Jack Lambersky Poultry Products, Inc., recalled
                                    approximately 200,000 pounds of ready-to-eat poultry products
                                    potentially contaminated with Listeria monocytogenes.            On
                                    November 20, 2002, this recall was expanded to 4.2 million pounds of
                                    poultry products.

18
     FSIS Directive 8080.1, Rev. 3, “Recall of Meat and Poultry Products,” dated January 19, 2000.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                  23
                      FSIS’ Beltsville District Office did not document that it conducted
                      effectiveness checks for the entire Jack Lambersky Poultry Products, Inc.,
                      recall. We determined that no effectiveness checks performed by the
                      Beltsville District were dated after the expansion of the recall occurred.
                      The FSIS Beltsville District Office did not perform effectiveness checks to
                      ensure that almost 279,000 pounds of product recalled by Jack Lambersky
                      Poultry Products, Inc., were properly controlled.

                   • On August 10, 2002, Russer Foods recalled approximately 1,300 pounds
                     of pork products potentially contaminated with Listeria monocytogenes.
                     The product was distributed in the States of New York, Pennsylvania,
                     West Virginia, and Ohio.

                      All district offices that receive recalled products are required to perform
                      effectiveness checks. We determined that the FSIS Chicago District,
                      which covers Ohio, did not perform effectiveness checks for stores that
                      received approximately 76 pounds (12 cases) of products recalled by
                      Russer Foods.

                   We found similar deficiencies in FSIS’ oversight and control of the ConAgra
                   recall. To address the weaknesses, we recommended that FSIS implement a
                   management control process to ensure that district managers comply with
                   recall procedures and that compliance officers’ determinations are reviewed,
                   analyzed, and acted on. We further recommended that FSIS reassess its
                   policies and procedures for managing the recall process. This included
                   establishing criteria to ensure that required effectiveness checks are
                   completed and to determine whether recalls are effective. FSIS agreed with
                   these recommendations. FSIS implemented interim guidelines in March 2003
                   to ensure that recall activities are effectively carried out. These interim
                   guidelines do not establish or provide criteria for assessing recall
                   effectiveness. FSIS also convened a workgroup to consider the overall
                   policies and procedures for managing the recall process and the recall
                   effectiveness checks. On May 24, 2004, FSIS issued Directive 8080.1,
                   Revision 4, “Recall of Meat and Poultry Products.” This Directive describes
                   the responsibilities of industry and FSIS personnel regarding the recall of
                   FSIS-inspected meat and poultry products. We continue to work with FSIS to
                   obtain an acceptable action plan to correct the weaknesses identified.

                   FSIS needs to reassess the effectiveness checks performed and related recall
                   reports for the Pilgrim’s Pride Corporation (see Finding No. 5), Jack
                   Lambersky Poultry Products, Inc., and Russer Foods recalls to ensure that
                   discrepancies are resolved and the information presented is accurate and
                   complete.




USDA/OIG-AUDIT No. 24601-02-Hy                                                                24
Recommendation No. 7

                   Review the effectiveness checks and related recall reports submitted by the
                   FSIS District Office for the Jack Lambersky Poultry Products, Inc., recall.
                   Ensure that all discrepancies have been resolved and the information
                   presented is accurate and complete.

                   Agency Response.

                   FSIS completed the recall and officially closed it. The recall has been
                   removed from the Agency’s active list. To cost effectively address the OIG’s
                   concerns, the FSIS Office of Program Evaluation, Enforcement and Review
                   (OPEER) will complete a review of the Jack Lambersky effectiveness checks
                   and related recall reports to summarize the accuracy and completeness of the
                   effectiveness checks. OPEER will complete its review by December 2004.

                   OIG Position.

                   We generally agree with FSIS’ proposed corrective action. However, we are
                   concerned that the target date for completing the review is December 2004.
                   To reach management decision, a timelier plan of action is needed.

                   Additionally, it is important that the OPEER review do more than
                   “summarize the accuracy and completeness of the effectiveness checks.” Our
                   audit showed that the effectiveness checks were neither accurate nor
                   complete. To reach management decision, the review should ensure the
                   resolution of all discrepancies. To the extent that discrepancies can no longer
                   be resolved, due to the passage of time, the review should identify specific
                   errors and omissions and detail the actions taken to preclude their recurrence
                   (e.g., direct feedback to the responsible compliance officers).

                   To reach management decision, the results of OPEER’s review should be
                   incorporated into training material for FSIS personnel. In addition, the review
                   results should be incorporated into FSIS Directive 8080.1, “Recall of Meat
                   and Poultry Products,” to strengthen FSIS’ oversight of recall activities.

Recommendation No. 8

                   Review the effectiveness checks and related recall reports submitted by the
                   FSIS District Office for the Russer Foods recall. Ensure that all discrepancies
                   have been resolved and the information presented is accurate and complete.

                   Agency Response.

                   FSIS completed the recall and officially closed it. The recall has been
                   removed from the Agency’s active list. To cost effectively address the OIG’s
USDA/OIG-AUDIT No. 24601-02-Hy                                                                 25
                   concerns, OPEER will complete a review of the Russer Foods effectiveness
                   checks and related recall reports to summarize the accuracy and completeness
                   of the effectiveness checks.         OPEER will complete its review by
                   December 2004.

                   OIG Position.

                   We generally agree with FSIS’ proposed corrective action. However, we are
                   concerned that the target date for completing the review is December 2004.
                   To reach management decision, a timelier plan of action is needed.

                   Additionally, it is important that the OPEER review do more than
                   “summarize the accuracy and completeness of the effectiveness checks.” Our
                   audit showed that the effectiveness checks were neither accurate nor
                   complete. To reach management decision, the review should ensure the
                   resolution of all discrepancies. To the extent that discrepancies can no longer
                   be resolved, due to the passage of time, the review should identify specific
                   errors and omissions, and detail the actions taken to preclude their recurrence
                   (e.g., direct feedback to the responsible compliance officers).

                   To reach management decision, the results of OPEER’s review should be
                   incorporated into training material for FSIS personnel. In addition, the review
                   results should be incorporated into FSIS Directive 8080.1, “Recall of Meat
                   and Poultry Products,” to strengthen FSIS’ oversight of recall activities.


Finding 5          Ineffective Oversight of Recalled Product Distributed to the NSLP

                   Prior to the recall, USDA purchased 1.7 million pounds of ready-to-eat
                   poultry products from the Pilgrim’s Pride Corporation. This product was
                   donated to 20 States for use in the NSLP. On October 12, 2002, Pilgrim’s
                   Pride Corporation recalled approximately 27.4 million pounds of ready-to eat
                   poultry products potentially contaminated with Listeria monocytogenes. The
                   recalled product included the 1.7 million pounds of product purchased by
                   USDA.

                   Due to FSIS’ lack of control over the recall process, the agency did not ensure
                   the product distributed for use in the NSLP and potentially served to a
                   vulnerable population was effective. For example, we identified 80 of
                   362 effectiveness checks in which compliance officers did not follow up with
                   schools and warehouses to determine how they disposed of potentially
                   contaminated product. As a result, FSIS has no assurance that approximately
                   273,647 pounds of product were removed from the NSLP, and cannot fully
                   ensure that all reasonable efforts were made to retrieve the remaining recalled
                   product.


USDA/OIG-AUDIT No. 24601-02-Hy                                                                 26
                                  FSIS procedures19 require FSIS program personnel to make a sufficient
                                  number of effectiveness checks to verify: (1) that adequate notice was
                                  provided to the consignees; and (2) that consignees located and controlled
                                  products and followed the recalling firm’s instructions for removing the
                                  product. The results of the effectiveness checks performed are recorded on
                                  FSIS Form 8400-4, Report of Recall Effectiveness. These reports capture
                                  data such as the disposition of the product and whether followup reviews
                                  were performed.

                                  We reviewed all of the effectiveness checks performed by FSIS Compliance
                                  Officers for the 1.7 million pounds of product distributed for use in the NSLP.
                                  This included checks at 202 schools where the product was distributed and at
                                  160 warehouses where the product was stored.                    We identified
                                  351 discrepancies in the data documented on the 362 forms.                  (An
                                  effectiveness check may have more than one discrepancy.) Examples of these
                                  discrepancies (described in more detail below) are product disposition not
                                  being accurately determined, followup reviews not being performed, and
                                  product weight not being determined. The discrepancies were similar to those
                                  we reported in our review of the ConAgra recall.

                                  • Product Disposition Was Not Accurately Determined. FSIS Compliance
                                    Officers are required to determine the product disposition to ensure that
                                    the recalled product has been removed from commerce. We found 81 of
                                    the 362 effectiveness checks where the product disposition could not be
                                    accurately determined because the compliance officers did not accurately
                                    complete the effectiveness check form. Further, these discrepancies were
                                    not identified and corrected because FSIS procedures did not require
                                    supervisory review to ensure the forms were fully completed.

                                       For example, at a warehouse in Massachusetts, the effectiveness check
                                       indicated that the product was returned to Pilgrim’s Pride Corporation on
                                       the form’s product disposition block. However, the FSIS Compliance
                                       Officer noted in the form’s remarks section that the 1,500 pounds of
                                       product was on hold in the freezer as of November 20, 2002. There was
                                       no record of a followup review by the FSIS Compliance Officer to ensure
                                       that the product was returned to Pilgrim’s Pride Corporation.

                                  • No Followup Reviews Performed. When a followup review is necessary,
                                    FSIS Compliance Officers are required to document another effectiveness
                                    check and note that it is a followup report. We found 80 of the
                                    362 effectiveness checks where the forms indicated that product was on
                                    hold pending pickup or further instructions. However, we did not find
                                    any indication that the FSIS Compliance Officer performed a followup
                                    review to ensure that the product was removed from the schools and

19
     FSIS Directive 8080.1, Rev. 3, “Recall of Meat and Poultry Products,” dated January 19, 2000.
USDA/OIG-AUDIT No. 24601-02-Hy                                                                                27
                      warehouses. FSIS procedures do not adequately state the responsibilities
                      of the compliance officer to perform followup reviews when necessary.
                      Consequently, FSIS has no assurance that approximately 273,647 pounds
                      of recalled products were removed from the NSLP.

                      For example, one effectiveness check reported 230 pounds of product was
                      on hold at a high school in Louisiana as of November 6, 2002, pending
                      pickup. We found that no followup review was performed by the FSIS
                      Compliance Officer to ensure that the product was picked up. The FSIS
                      Compliance Officer informed us that he did not follow up because the
                      school was instructed to contact him if the product was not picked up.
                      The compliance officer stated that no call was received from the school.

                   • Product Weight Was Not Determined. FSIS Compliance Officers are
                     required to compare distribution information provided by the recalling
                     firm with data developed during the effectiveness checks to determine the
                     amount of product in the distribution channels. FSIS Compliance Officers
                     are required to document the comparisons, resolve any discrepancies, and
                     record the findings on the effectiveness check form. We found 75 of the
                     362 effectiveness checks where the weight of the product purchased by
                     the consignee and the amount on hand at the time of the recall could not
                     be determined because the amount of product was unknown or not
                     documented on the effectiveness check form. FSIS procedures do not
                     address the review of the effectiveness check form by the compliance
                     officer to ensure that the form was fully completed.

                      For a Head Start program in Louisiana, the effectiveness check form
                      indicated that the amount of product in inventory was “unknown” both at
                      the time the recall notification was issued and the time the effectiveness
                      check was performed. In the remarks section, the FSIS Compliance
                      Officer noted the person contacted did not know how much, if any, of the
                      affected products were on hand when the recall notification was received.
                      Additionally, the school cook, who was out on vacation, handled this for
                      the firm. This effectiveness check form did not indicate whether there was
                      a followup performed by the FSIS Compliance Officer to determine the
                      disposition of the product.

                   • Other Discrepancies. We also noted additional discrepancies, which
                     caused us to question the information presented on the effectiveness check
                     forms. For example, firms are required to initiate sub-recalls if the recall
                     involves distribution by distributors or wholesalers.          We found
                     14 effectiveness checks where subaccounts were identified but sub-recalls
                     were not initiated. We identified another 14 effectiveness checks where
                     there was a sub-recall but no determination on the form that the sub-recall
                     instructions were followed.

USDA/OIG-AUDIT No. 24601-02-Hy                                                                28
                   In our report on the ConAgra recall, we reported similar deficiencies in FSIS’
                   oversight and control of the recall process. To address the weaknesses, we
                   recommended that FSIS implement a management control process to ensure
                   that district managers comply with recall procedures and that compliance
                   officers’ determinations are reviewed, analyzed, and acted on. We further
                   recommended that FSIS reassess its policies and procedures for managing the
                   recall process. This included establishing criteria to ensure that required
                   effectiveness checks are completed and to determine whether recalls are
                   effective. FSIS agreed with these recommendations. FSIS implemented
                   interim guidelines in March 2003 to ensure that recall activities are effectively
                   carried out. These interim guidelines do not establish or provide criteria for
                   assessing recall effectiveness. FSIS also convened a workgroup to consider
                   the overall policies and procedures for managing the recall process and the
                   recall effectiveness checks. On May 24, 2004, FSIS issued Directive 8080.1,
                   Revision 4, “Recall of Meat and Poultry Products.” This Directive describes
                   the responsibilities of industry and FSIS personnel regarding the recall of
                   FSIS-inspected meat and poultry products. We continue to work with FSIS to
                   obtain an acceptable action plan to correct the weaknesses identified.

                   In addition to implementing these measures to strengthen the recall process,
                   FSIS should compile information on the effectiveness checks performed on
                   product purchased by USDA and distributed to the NSLP. FSIS Compliance
                   Officers should be trained on the importance of accurately and completely
                   performing effectiveness checks for product distributed to vulnerable
                   populations, such as school children. FSIS should also review the
                   effectiveness checks performed for the Pilgrim’s Pride Corporation recall to
                   ensure that all discrepancies have been resolved and that a supervisory review
                   is performed to ensure the information is accurate and complete. Finally,
                   FSIS should implement procedures to ensure the effectiveness of checks
                   performed on the recalled product distributed to vulnerable populations.

Recommendation No. 9

                   As part of the restructuring of the recall process, FSIS should ensure that
                   compliance officers have sufficient training to perform accurate and complete
                   effectiveness checks on product distributed to the NSLP.

                   Agency Response.

                   FSIS is revising Directive 8080.1, “Recall of Meat and Poultry Products” to
                   enhance the instructions and guidance given to agency personnel responsible
                   for verifying the effectiveness of the recalling establishment in conducting the
                   recall. The revised directive will incorporate a new risk-based approach for
                   conducting effectiveness checks. FSIS will issue the revised directive by
                   June 2004.

USDA/OIG-AUDIT No. 24601-02-Hy                                                                   29
                   In October 2003, FSIS initiated EIAO training that included instructions and
                   guidance on conducting effectiveness checks of establishments conducting
                   recalls. FSIS is expanding its talent pool for conducting and following up on
                   effectiveness checks through the use of trained EIAO and Veterinary Medical
                   Officers in the recall verification process. FSIS conducted an EIAO training
                   course for 250 field personnel that covered the risk-based recall effectiveness
                   procedures during the week of April 12, 2004.

                   OIG Position.

                   We accept FSIS’ management decision. FSIS issued Directive 8080.1,
                   Revision 4, on May 24, 2004. This Directive includes enhanced instruction to
                   agency personnel for effectiveness checks performed on product distributed to
                   the NSLP. For final action, FSIS needs to provide OCFO with the applicable
                   material from the EIAO training that shows the training provided to
                   accurately and completely perform effectiveness checks on product
                   distributed to the NSLP.

Recommendation No. 10

                   Develop and implement procedures to ensure recalled product distributed to
                   schools and institutions that serve vulnerable populations is accounted for.
                   FSIS should timely and accurately compile information such as the amount of
                   recalled product: (1) sent to the school level; (2) returned or destroyed; and
                   (3) consumed. The compiled information should also document how many
                   schools the compliance officers visit. This information should be provided in
                   the recall final reports submitted by each FSIS District Office to summarize
                   the recall efforts and the findings of the effectiveness checks performed at
                   schools.

                   Agency Response.

                   FSIS will revise Directive 8080.1, “Recall of Meat and Poultry Products” to
                   enhance the instruction and guidance given to agency personnel responsible
                   for verifying the effectiveness of the recalling establishment in conducting the
                   recall. The revised directive will improve the Agency’s recall procedures.
                   The revised directive will enable the collection of distribution information at
                   the plant to begin prior to testing results becoming final to enhance the speed
                   and effectiveness of recalls. The Agency will also increase its effectiveness
                   checks for Class I recalls and in cases where products are distributed to at-risk
                   groups. The risk-based effectiveness checks will help ensure that more
                   concentrated effort is placed on timely verifying the effectiveness of recalled
                   product from the most vulnerable population. The revised directive will
                   include timeframes for initiating and reporting verification activities within
                   FSIS and will include provisions for locating products at point of sale and

USDA/OIG-AUDIT No. 24601-02-Hy                                                                   30
                   ensuring the proper disposition of recalled product.      FSIS will issue the
                   revised directive by June 2004.

                   In October 2003, FSIS initiated EIAO training that included instructions and
                   guidance on conducting effectiveness checks of establishments conducting
                   recalls. FSIS is expanding its talent pool for conducting and following up on
                   effectiveness checks through the use of trained EIAO and Veterinary Medical
                   Officers in the recall verification process. FSIS conducted an EIAO training
                   course for 250 field personnel that covered the risk-based recall effectiveness
                   procedures during the week of April 12, 2004.

                   OIG Position.

                   We do not accept FSIS’ management decision. FSIS issued Directive 8080.1,
                   Revision 4, on May 24, 2004. The Directive did not include any of the
                   recommended actions to improve accountability over recalled product
                   distributed to schools and institutions that serve vulnerable populations.

                   To reach management decision, FSIS needs to incorporate procedures into
                   Directive 8080.1 that require FSIS personnel to account for recalled product
                   distributed to schools and institutions that serve vulnerable populations. The
                   procedures should require the timely and accurate compilation of information
                   on the distribution, return, destruction, and consumption of recalled product.
                   As part of the compilation, FSIS should document how many schools were
                   visited. Finally, the compiled information should be included in the FSIS
                   District Office reports that summarize the recall efforts. In the interim, FSIS
                   needs to implement compensating controls to ensure that recalled product
                   distributed to schools and institutions that serve vulnerable populations is
                   accounted for.

Recommendation No. 11

                   Review the effectiveness checks performed by FSIS Compliance Officers for
                   the Pilgrim’s Pride Corporation recall to ensure that all discrepancies have
                   been resolved and a supervisory review is performed to ensure the
                   information is accurate and complete.

                   Agency Response.

                   FSIS completed the recall and officially closed it. The recall has been
                   removed from the active list. To cost effectively address the OIG’s concerns,
                   OPEER will complete a review of the Pilgrim’s Pride Corporation
                   effectiveness checks and related recall reports to summarize the accuracy and
                   completeness of the effectiveness checks. OPEER will complete its review
                   by December 2004.

USDA/OIG-AUDIT No. 24601-02-Hy                                                                 31
                   OIG Position.

                   We generally agree with FSIS’ proposed corrective action. However, we are
                   concerned that the target date for completing the review is December 2004.
                   To reach management decision, a timelier plan of action is needed.

                   Additionally, it is important that the OPEER review do more than
                   “summarize the accuracy and completeness of the effectiveness checks.” Our
                   audit showed that the effectiveness checks were neither accurate nor
                   complete. To reach management decision, the review should ensure the
                   resolution of all discrepancies. To the extent that discrepancies can no longer
                   be resolved, due to the passage of time, the review should identify specific
                   errors and omissions and detail the actions taken to preclude their recurrence
                   (e.g., direct feedback to the responsible compliance officers).

                   To reach management decision, the results of OPEER’s review should be
                   incorporated into training material for FSIS personnel. In addition, the review
                   results should be incorporated into FSIS Directive 8080.1, “Recall of Meat
                   and Poultry Products,” to strengthen FSIS’ oversight of recall activities.

Recommendation No. 12

                   Re-examine the effectiveness checks performed by FSIS Compliance Officers
                   for the Pilgrim’s Pride Corporation recall to ensure that the 273,647 pounds of
                   product has been removed from the NSLP and the information presented is
                   accurate and complete.

                   Agency Response.

                   FSIS completed the recall and officially closed it. The recall has been
                   removed from the active list. To cost effectively address the OIG’s concerns,
                   OPEER will complete a review of the Pilgrim’s Pride Corporation
                   effectiveness checks and related recall reports to summarize the accuracy and
                   completeness of the effectiveness checks. OPEER will complete its review
                   by December 2004.

                   OIG Position.

                   We generally agree with FSIS’ proposed corrective action. However, we are
                   concerned that the target date for completing the review is December 2004.
                   To reach management decision, a timelier plan of action is needed.

                   Additionally, it is important that the OPEER review do more than
                   “summarize the accuracy and completeness of the effectiveness checks.” Our
                   audit showed that the effectiveness checks were neither accurate nor
                   complete. To reach management decision, the review should ensure the
USDA/OIG-AUDIT No. 24601-02-Hy                                                                 32
                   resolution of all discrepancies to include ensuring that the 273,647 pounds of
                   product has been removed from the NSLP. To the extent that discrepancies
                   can no longer be resolved, due to the passage of time, the review should
                   identify specific errors and omissions and detail the actions taken to preclude
                   their recurrence (e.g., direct feedback to the responsible compliance officers).

                   To reach management decision, the results of OPEER’s review should be
                   incorporated into training material for FSIS personnel. In addition, the review
                   results should be incorporated into FSIS Directive 8080.1, “Recall of Meat
                   and Poultry Products,” to strengthen FSIS’ oversight of recall activities.




USDA/OIG-AUDIT No. 24601-02-Hy                                                                  33
Scope and Methodology
                   Our audit focused on documentation, operations, and regulations applicable to
                   the production, distribution, and recall of ready-to-eat products primarily from
                   January 2002 to July 2003.

                   FSIS Headquarters, Districts, and Circuits

                   To determine the adequacy of FSIS’ oversight of the Listeria outbreak and
                   inspection activities at selected plants, we held discussions with FSIS District,
                   Circuit, and Inspection personnel regarding plant operations prior to, during,
                   and subsequent to the recall and reviewed supporting documentation. At
                   FSIS Headquarters, we concentrated on the responsibilities of the OPPD,
                   OPHS, and OFO. Our review included an analysis of the Listeria outbreak
                   investigation, FSIS Directive 10,240.3, risk assessment, ongoing research
                   activities, recall procedures, and record keeping.

                   At the district offices, we familiarized ourselves with the inspection, recall,
                   and sampling responsibilities of the inspectors and the oversight of the circuit
                   supervisors and other district personnel including the district manager, deputy
                   district mangers, and the inspection coordinator.

                   We performed audit work at the following locations:

                   • FSIS Headquarters in Washington, DC;
                   • FSIS     District   Offices    in    Philadelphia,   Pennsylvania          and
                     Beltsville, Maryland; and
                   • FSIS Circuits in Hatfield, Pennsylvania and Trenton, New Jersey.

                   Selected Plants.

                   At the selected plants, we conducted a tour and held discussions with various
                   corporate and plant officials such as the plant manager, recall coordinator,
                   quality control manager, HACCP coordinator, and comptroller to obtain and
                   understanding of their responsibilities and become familiar with the scope of
                   the plant’s operations, recall procedures, construction projects, consultants
                   utilized during the recall, and record keeping procedures. We reviewed the
                   plant’s NRs, recall summaries, HACCP plans, SSOPs, and related documents.
                   We also reviewed the comprehensive plant assessments performed by the
                   consumer safety officers and the effectiveness checks completed by the
                   compliance officers.




USDA/OIG-AUDIT No. 24601-02-Hy                                                                   34
                   We performed audit work at the following locations:

                   • Pilgrim’s Pride Corporation in Franconia, Pennsylvania and its
                     administrative offices located in Broadway, Virginia and third party
                     collection facilities in Crozet, Virginia and Mount Airy, Maryland; and

                   • Jack Lambersky Poultry Products, Inc., and its administrative office in
                     Camden, New Jersey.

                   Due to an ongoing criminal investigation, our audit work for the Pilgrim’s
                   Pride Corporation was limited to FSIS’ oversight of the effectiveness of the
                   recall.

                   Recalled Product Distributed to the National School Lunch Program.

                   To determine whether FSIS adequately accounted for recalled product
                   donated to the NSLP, we discussed recall procedures with FSIS, FNS, AMS,
                   State Departments of Education, and local school officials. Also, we
                   evaluated pertinent documentation, such as liability forms, commodity
                   reports, and receiving records. We obtained a Commodity Status report from
                   FNS and used that information to judgmentally select three States to visit,
                   based on the volume of recalled product served in schools.

                   We performed audit work at the following locations:

                   •   FNS Headquarters in Alexandria, Virginia;
                   •   AMS Headquarters in Washington, DC;
                   •   Georgia Department of Education in Atlanta, Georgia;
                   •   Bartow, Forsyth, and Cherokee county school districts in Georgia;
                   •   Michigan Department of Education in Lansing, Michigan;
                   •   Saline, Saginaw, and Pontiac county school districts in Michigan;
                   •   New York Office of General Services in Albany, New York; and
                   •   New York City Board of Education in Long Island City, New York.

                   We reviewed the findings and recommendations included in OIG’s Audit
                   Report No. 24601-2-KC, “Food Safety and Inspection Service Oversight of
                   Production Processes at ConAgra Plant (Establishment 969),” issued
                   September 30, 2003.

                   Our audit was conducted in accordance with Generally Accepted Government
                   Auditing Standards.




USDA/OIG-AUDIT No. 24601-02-Hy                                                              35
Exhibit A – Agency Response
                                 Page 1 of 9




USDA/OIG-AUDIT No. 24601-02-Hy          36
                                 Page 2 of 9




USDA/OIG-AUDIT No. 24601-02-Hy            37
                                 Page 3 of 9




USDA/OIG-AUDIT No. 24601-02-Hy          38
                                 Page 4 of 9




USDA/OIG-AUDIT No. 24601-02-Hy          39
                                 Page 5 of 9




USDA/OIG-AUDIT No. 24601-02-Hy          40
                                 Page 6 of 9




USDA/OIG-AUDIT No. 24601-02-Hy          41
                                 Page 7 of 9




USDA/OIG-AUDIT No. 24601-02-Hy          42
                                 Page 8 of 9




USDA/OIG-AUDIT No. 24601-02-Hy          43
                                 Page 9 of 9




USDA/OIG-AUDIT No. 24601-02-Hy          44
